<html>
<title> - COMBATING TERRORISM: ASSESSING THREATS, RISK MANAGEMENT AND ESTABLISHING PRIORITIES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




      COMBATING TERRORISM: ASSESSING THREATS, RISK MANAGEMENT AND 
                        ESTABLISHING PRIORITIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 26, 2000

                               __________

                           Serial No. 106-253

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
74-263                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH-HAGE, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Analyst
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 26, 2000....................................     1
Statement of:
    Bremer, Ambassador Paul, chairman, National Commission on 
      Terrorism; Michael Wermuth, Rand Corp., senior policy 
      analyst; John Parachini, Monterey Institute of 
      International Studies, executive director; and W. Seth 
      Carus, National Defense University, senior research 
      professor..................................................    42
    Rabkin, Norman, General Accounting Office, Director, National 
      Security and International Affairs Division, accompanied by 
      Stephen Caldwell, Assistant Director; and Raphael Perl, 
      Congressional Research Service, Specialist in International 
      Affairs....................................................     5
Letters, statements, etc., submitted for the record by:
    Blagojevich, Hon. Rod R., a Representative in Congress from 
      the State of Illinois, letter dated July 26, 2000..........    97
    Carus, W. Seth, National Defense University, senior research 
      professor, prepared statement of...........................    82
    Parachini, John, Monterey Institute of International Studies, 
      executive director, prepared statement of..................    57
    Perl, Raphael, Congressional Research Service, Specialist in 
      International Affairs, prepared statement of...............    25
    Rabkin, Norman, General Accounting Office, Director, National 
      Security and International Affairs Division, prepared 
      statement of...............................................     7
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Wermuth, Michael, Rand Corp., senior policy analyst, prepared 
      statement of...............................................    47

 
      COMBATING TERRORISM: ASSESSING THREATS, RISK MANAGEMENT AND 
                        ESTABLISHING PRIORITIES

                              ----------                              


                        WEDNESDAY, JULY 26, 2000

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays and Blagojevich.
    Staff present: Lawrence Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; R. Nicholas 
Palarino, senior policy advisor; Thomas Costa, professional 
staff member; Jason M. Chung, clerk; David Rapallo, minority 
counsel; and Earley Green, minority assistant clerk.
    Mr. Shays. The hearing will come to order. Earlier today we 
heard testimony in closed session from those familiar with very 
specific and very sensitive aspects of the threats posed by 
terrorists to U.S. citizens and property at home and abroad. 
That information provided some depth and clarity to the 
subcommittee's ongoing oversight of governmentwide terrorism 
issues.
    But terrorism also has a very public face. Using fear and 
panic as weapons, terrorists seek to amplify and transform 
crimes against humanity into acts of war. The growing and 
changing threat of terrorism requires an ongoing public 
discussion of the appropriate strategy, priorities and 
resources to protect public health and national security.
    That discussion brings us here this afternoon. As this 
point in the evolution of our post cold war response to the new 
realities of a dangerous world, we should have a dynamic, 
integrated assessment of the threat posed by foreign and 
domestic-origin terrorism. We should have a truly national 
strategy to counter the threat. And to implement that strategy, 
we should have a clear set of priorities to guide Federal 
programs and funding decisions.
    But for reasons of bureaucratic Balkanization, program 
proliferation, and a tendency to skew threat assessments toward 
worst-case scenarios, we still lack those important elements of 
a mature, effective policy to combat terrorism. In place of a 
national strategy, the administration points to an accumulation 
of event driven Presidential decision directives wrapped in a 
budget-driven 5-year plan.
    Congress has also contributed to the fragmentation and 
shifting priorities in counterterrorism programs, responding to 
crises with new laws and increased funding, but failing to 
reconcile or sustain those efforts over time.
    Yesterday, the House passed the Preparedness Against 
Terrorism Act of 2000 (H.R. 4210) to elevate and better focus 
responsibility for Federal programs to combat terrorism. If 
enacted into law, the bill should provide greater structure and 
discipline to the $11 billion effort to deter, detect and 
respond to terrorism. But any rearrangement of boxes on the 
organizational chart will only be effective if those involved 
are able to distinguish between theoretical vulnerabilities and 
genuine risks, and set clear priorities.
    So we asked our witnesses this afternoon to join our public 
oversight of these pressing issues. As the administration and 
Congress attempt to refine threat and risk assessments, 
formulate strategic goals and target program funding, this 
subcommittee will continue to rely on their experience and 
their insights. We welcome them and look forward to their 
testimony, and you have been sworn in because in our closed 
door hearing you were all sworn in. So we can just have you 
begin.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T4263.001
    
    [GRAPHIC] [TIFF OMITTED] T4263.002
    
    Mr. Shays. Mr. Rabkin.

    STATEMENTS OF NORMAN RABKIN, GENERAL ACCOUNTING OFFICE, 
DIRECTOR, NATIONAL SECURITY AND INTERNATIONAL AFFAIRS DIVISION, 
   ACCOMPANIED BY STEPHEN CALDWELL, ASSISTANT DIRECTOR; AND 
  RAPHAEL PERL, CONGRESSIONAL RESEARCH SERVICE, SPECIALIST IN 
                     INTERNATIONAL AFFAIRS

    Mr. Rabkin. Thank you, Mr. Chairman. With me is Steve 
Caldwell, who has been responsible for managing much of the GAO 
work, examining the Federal efforts to combat terrorism. We are 
pleased to be here this afternoon to discuss the use of threat 
and risk assessments to help prioritize and focus Federal 
resources to combat terrorism. This is an important issue 
because over 40 Federal agencies are involved, and the amount 
of Federal spending for combating terrorism will rise to $11 
billion in the next fiscal year.
    I would like to summarize the three main messages of my 
statement. The first message concerns the nature of the threat. 
How likely is it that a terrorist will use a chemical or 
biological weapon against the United States? The subcommittee 
was briefed this morning about the intelligence communities 
views on the threat Americans face from terrorist groups. When 
thinking about the threat, it is important to recognize that 
terrorists would face many difficulties using dangerous 
chemical or biological materials. First, the required 
components of chemical agents and highly infective strains of 
biological agents are difficult to obtain.
    Second, in most cases, specialized knowledge is required in 
the manufacturing process and in improvising an effective 
delivery device for most chemical and nearly all biological 
agents that would likely be used in terrorist attacks. Finally, 
terrorists may have to overcome other obstacles to successfully 
launch an attack that would result in mass casualties such as 
unfavorable meteorological conditions and personal safety 
risks.
    Our point is that policymakers should keep these inherent 
difficulties in mind when considering how the United States 
should act to prepare for and defend against these threats. 
Also, intelligence agencies should balance their assessments of 
the threat with the discussion of the difficulty in 
manufacturing and delivering it.
    Our second message is the need to use threat and risk 
assessments to help develop a national strategy and help 
prioritize and focus program investments to combat terrorism. 
Much of the Federal effort to combat terrorism has been based 
upon vulnerabilities which are unlimited rather than on an 
analysis of credible threats which are limited. Some agencies 
have used and are still using worst case scenarios to plan and 
develop programs. For example, the Department of Health and 
Human Services began to establish a national pharmaceutical and 
vaccine stockpile that did not match intelligence agencies 
estimates of the more likely agents that terrorists might use. 
On the other hand, the Justice Department has started to 
develop a national threat and risk assessment. Justice is also 
supporting efforts of State and local governments to assess the 
threats they may face and the risks inherent in the choices 
they have on how to respond to those threats.
    I would like to add that we remain concerned about whether 
the executive branch will develop a comprehensive national 
strategy for combating terrorism. In December, 1998, the 
Attorney General issued a 5-year plan that has many of the 
features that we would like to see in a national strategy. The 
recent update no longer include time lines, relative priorities 
or performance measures. In addition, the FBI, through the 
National Domestic Preparedness Office and the National Security 
Council, are also planning to develop national strategies. We 
also have concerns about who is in charge. As you know, in May 
1998, Presidential Decision Directive 62 established the 
national coordinator for security, infrastructure protection, 
and counterterrorism in the National Security Council. However, 
H.R. 4210, which passed the House yesterday, will create a 
President's council on domestic terrorism preparedness in the 
White House with authorities similar to those of a drug czar. 
In addition, the Senate Appropriations Committee has proposed 
elevating the NPDO to a higher status within the Justice 
Department to be headed by an assistant attorney general.
    My final message is how other countries allocate resources 
and determine funding priorities to combat terrorism. Foreign 
countries also face terrorist threats and have to develop 
programs and priorities to combat terrorism. In our April 2000 
report to the subcommittee, we discussed how five foreign 
countries, Canada, France, the United Kingdom, Israel, and 
Germany, are organized to combat terrorism, including how they 
develop programs and direct resources. Our overall conclusions 
were that first, foreign officials believed that terrorist 
attacks are unlikely for a variety of reasons, including the 
reason that terrorists would face in producing and delivering 
chemical or biological weapons. Second, because of limited 
resources, these foreign governments make funding decisions for 
programs to combat terrorism based upon the likelihood of 
terrorist activity actually taking place, not on overall 
vulnerability to terrorist attacks.
    And finally, also due to resource constraints, these 
officials said that they maximize their existing capabilities 
to address a wide array of threats before they create new 
capabilities or programs to respond to such attacks.
    Mr. Chairman, this completes my oral statement, and Mr. 
Caldwell and I will be glad to answer your questions.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. Rabkin follows:]

    [GRAPHIC] [TIFF OMITTED] T4263.003
    
    [GRAPHIC] [TIFF OMITTED] T4263.004
    
    [GRAPHIC] [TIFF OMITTED] T4263.005
    
    [GRAPHIC] [TIFF OMITTED] T4263.006
    
    [GRAPHIC] [TIFF OMITTED] T4263.007
    
    [GRAPHIC] [TIFF OMITTED] T4263.008
    
    [GRAPHIC] [TIFF OMITTED] T4263.009
    
    [GRAPHIC] [TIFF OMITTED] T4263.010
    
    [GRAPHIC] [TIFF OMITTED] T4263.011
    
    [GRAPHIC] [TIFF OMITTED] T4263.012
    
    [GRAPHIC] [TIFF OMITTED] T4263.013
    
    [GRAPHIC] [TIFF OMITTED] T4263.014
    
    [GRAPHIC] [TIFF OMITTED] T4263.015
    
    [GRAPHIC] [TIFF OMITTED] T4263.016
    
    [GRAPHIC] [TIFF OMITTED] T4263.017
    
    [GRAPHIC] [TIFF OMITTED] T4263.018
    
    Mr. Shays. Mr. Perl.
    Mr. Perl. Thank you, Mr. Chairman. Threat assessment is 
integrally linked to dramatic changes taking place in the 
global economy and the technology infrastructure. These changes 
may influence and affect terrorist goals, tactics, 
organizations and weaponry. As the United States grows stronger 
economically, militarily and politically, our enemies may be 
even more tempted to attack our Nation with asymmetric 
weaponry. The evolving threat raises important questions 
regarding the structure, organization, preparedness and ability 
of governments to respond to a threat that has been 
characterized as more difficult, diffuse, and dangerous. We 
must ask ourselves, does the way we look at the problem reflect 
the real world? The global economy is bringing together 
deregulation, trends toward deregulation, open borders and 
enhanced movement of people, goods and services. We are 
witnessing the spread of democracy, the spread of capitalism 
and free trade and global access to information and new 
technologies. These trends provide opportunities for the 
terrorist as well. This globalization facilitates the ability 
of individual terrorist and terrorist groups to operate in a 
relatively unregulated environment, and the development of the 
world economy and modern communication systems have made it 
possible for small groups and even private individuals to fund 
terrorism at a level available previously only to States. 
Today, many of the advantages historically available to 
counterterrorism forces, even those with large resources, are 
potentially neutralized by instantaneous secure communications 
available to the terrorist through Internet and other 
technologies.
    Many believe that terrorism is increasingly assuming a 
national security dimension. On the other hand, what some have 
characterized as a new and growing opportunistic relationship 
between terrorism and organized crime could well result in an 
increased role for law enforcement and terrorist threat 
assessment. A growing concern is that when faced with a growing 
number of anonymous terrorist acts, authorities may be unable 
to quickly and definitively assign responsibility, therefore, 
neutralizing the effectiveness of any potential deterrent 
action. Another concern is what are the unintended consequences 
of our counterterrorism assumptions and policies. By hardening 
military targets and Embassies overseas, U.S. commercial sites 
or residential sites may become more likely targets.
    Today, simply by implied threats, terrorists can cause the 
expenditure of hundreds of millions of dollars by governments, 
but on the other hand, ignoring threats by groups that have 
engaged in terrorism in the past is generally not thought to be 
an acceptable policy option. A major challenge facing us is not 
to lose the creativity, spontaneity and boldness of individual 
agency threat assessments in the dynamics of the interagency 
process; but on the other hand, in the interagency process, 
relative data and relevant data is reviewed and exchanged and 
working relationships among personnel are strengthened and 
improved. Some experts have looked to the drug czar model in 
seeking to reform government structures to deal with terrorism. 
And increasingly, terrorist organizations are looking to the 
drug trade for a source of funding.
    The Office of National Drug Control Policy, we have heard a 
lot about it today, is unique in the Federal bureaucracy and 
emerging international and domestic responsibilities and in 
providing policy direction to operations through the budget 
process. A strong director with a strong personality and strong 
backing from a President has been said to command the respect 
of a 500-pound gorilla in the interagency community.
    Others, however, suggest that the effectiveness of the drug 
czar's office in bringing together the diverse elements of the 
interagency community is mixed at best. A substantial challenge 
lies ahead for the counterterrorism community. A concept may be 
increasingly gaining ground to limit the presence of U.S. 
personnel at Embassies overseas.
    Critical to threat assessment is the need to get smarter, 
not just protecting against from threats from outsiders, but 
smarter about threats posed by people with legitimate access. 
This includes acts of carelessness by insiders. A chain is only 
as strong as its weakest link. The need to continue efforts to 
enhance our vigilance, to minimize potential threats posed by 
outsiders working at Embassies and military installations 
overseas is strong.
    Critical to threat assessment is a better understanding of 
the countries and cultures where foreign terrorists are bred 
and operate. Some experts have suggested including know your 
money in agency's budgets. This and the establishment of an 
interagency counterterrorism reserve contingency fund may 
warrant consideration. However, other experts are concerned 
about lack of accountability such a fund may offer and the fact 
that money may be spent for purposes other than intended. One 
of the most important challenges facing the counterterrorism 
community is to ensure that our antiterrorism efforts are fully 
coordinated. The Oklahoma City bombing and other events have 
demonstrated that terrorism is not limited to those areas where 
we are prepared for it.
    The challenges facing us in assessing threats, allocating 
resources, and ensuring an effective congressional role in 
counterterrorism policy are complex. But inherent in challenges 
are opportunities to bring together the diverse elements of the 
counterterrorism community. Thank you.
    Mr. Shays. Thank you, Mr. Perl.
    [The prepared statement of Mr. Perl follows:]

    [GRAPHIC] [TIFF OMITTED] T4263.019
    
    [GRAPHIC] [TIFF OMITTED] T4263.020
    
    [GRAPHIC] [TIFF OMITTED] T4263.021
    
    [GRAPHIC] [TIFF OMITTED] T4263.022
    
    [GRAPHIC] [TIFF OMITTED] T4263.023
    
    [GRAPHIC] [TIFF OMITTED] T4263.024
    
    [GRAPHIC] [TIFF OMITTED] T4263.025
    
    [GRAPHIC] [TIFF OMITTED] T4263.026
    
    [GRAPHIC] [TIFF OMITTED] T4263.027
    
    [GRAPHIC] [TIFF OMITTED] T4263.028
    
    Mr. Shays. When I get back, I am going to ask staff to ask 
questions. Unfortunately, I am not allowed to let them do it 
while I am not here. I am going to quickly vote and hustle back 
here. So we stand in recess.
    [Recess.]
    Mr. Shays. I will call this hearing to order and I would 
like to recognize the committee counsel, Mr. Halloran.
    Mr. Halloran. Thank you.
    Mr. Rabkin, I want to go through some parts of your written 
statement and get you to amplify a little bit. In discussing 
the limitations and technical challenges that terrorists might 
face in trying to use chemical or biological weapons and 
radiological weapons in particular, you said that they are not 
often in public statements. Do you find them included in 
internal discussions or internal documents?
    Mr. Rabkin. A lot of the supporting documentation which is 
usually classified contains much more of a discussion of these 
reality factors. It is just in some public statements there is 
not much qualification given, just that these groups can make 
these weapons and are likely to use them.
    Mr. Halloran. Is it your judgment that those limitations 
are realistically reflected in net threat assessments that are 
used, more realistic than in the public statements?
    Mr. Rabkin. I am not in a position to say that they made a 
net assessment. The net intelligence estimates are a term of 
art that means certain things. My understanding is that most of 
these qualifications are reflected in those kinds of documents.
    Mr. Caldwell. I have one other thing that I want to add. 
Our statement says that some officials are not including these 
qualifications. In some public statements we have seen them. 
The head of the Defense Intelligence Agency before the Senate 
Intelligence Committee had some of these kinds of qualifiers in 
there, but we don't find them made in statements by DCI and 
others, and those hold the most overall weight when people are 
assessing the threat of chemical or biological terrorism.
    Mr. Halloran. On page 6, you say that you have recently 
seen some progress in terms of assessing threat assessment? Can 
you amplify that a little more?
    Mr. Rabkin. First, on a broad and macro level we 
recommended that the Justice Department, through the FBI, do a 
net intelligence estimate of the threat from chemical and 
biological terrorism domestically, domestic sources to 
complement an assessment that had been done by the CIA 
regarding that threat from foreign sources. The Justice 
Department has started the process for preparing that estimate.
    Also, when we talk about risk assessments being done at a 
State and local level, the analytical basis for making these 
kinds of risk assessments, taking threats and understanding the 
vulnerabilities of the assets that are at risk, some of the 
countermeasures that are possible and weighing the costs 
against the threats, the structure for doing that has been--the 
Justice Department has prepared some materials that would be 
helpful to State and local governments and are providing those 
to the government, so at the State and local levels, the risk 
assessments can be done and the funding decisions that come 
from them can be more analytically based.
    Mr. Halloran. So using that tool, the Justice Department 
might prevent local risk assessments from being simply laundry 
lists of vulnerabilities?
    Mr. Rabkin. That is the hope. Certainly, the structure is 
there. How it is being used remains to be seen. As a 
coordinator, the Justice Department can help State and local 
governments through the use of best practices and not have them 
reinvent the wheel. Here is a tool that can be used if they 
want to.
    Mr. Halloran. The FBI testimony which is not classified, 
they gave us an unclassified version of it, describes or 
discusses your recommendations and says at one point that a net 
or a comprehensive threat assessment such as you recommend 
would be inherently too broad based to provide much value. 
Instead, the FBI have concentrated on providing more focused 
threat assessments for major special events. Do you agree with 
that?
    Mr. Rabkin. I think there is room for both. What we are 
talking about provides broad oversight as to whether the threat 
is increasing, whether there are certain aspects of the threat 
that are becoming more pronounced than others and can make some 
of the more strategic decisions about the level of funding that 
Congress ought to be providing, where it is being directed, and 
whether there is adequate research and development being 
conducted, etc.
    On a more operational or tactical level, the FBI is right, 
they have to remain up to date, not that these broader 
assessments cannot be routinely updated, but as a particular 
threat develops for a particular location or a particular 
event, I think that the FBI and other intelligence agencies, by 
focusing at that level, can deal with that issue. What we were 
talking about was much more strategic, and so therefore, I 
think there is room for both.
    Mr. Halloran. Your statement says in your current work, you 
continue to find worst case scenarios are being used to develop 
planning capabilities, and one example in your statement was 
the selection of items for the pharmaceutical stockpiles. Can 
you give us some other examples where worst case scenarios are 
driving program planning?
    Mr. Caldwell. On the CBRN response teams, we have found 
that the Federal Emergency Management Agency has put together 
some scenarios to plan which teams and what size and how they 
would respond, which is using worst case scenarios, in terms of 
mass casualties and things that are not based, in our view, in 
terms of validated intelligence, nor the science behind the 
threat in terms of some of the difficulties, and whether this 
kind of attack would even be feasible. Again, those are 
potentially being used to decide which Federal teams need to be 
beefed up, and so potentially, where resources would be 
developed.
    Mr. Halloran. Mr. Perl, in your statement, you talk about 
the drug czar model, and you gave two sides of a good argument. 
What might be inept about that model when tried to apply to the 
terrorism issue?
    Mr. Perl. What might be inept in the way that the model 
currently exists would be the need for the office to get 
ongoing authorization from Congress. There are advantages from 
the viewpoint of congressional control, but in terms of the 
respect and clout that you have in the interagency community, 
there is a concern that this particular institution outside the 
community might not be around in a few years, maybe we can 
simply wait it out. That would be one problem.
    Another potential problem from the perspective you are 
asking me to portray would be the drug czar's office, and this 
is something good, but on the flip side, it could be a problem. 
The drug czar's office has a staff of 124 people plus some 
detailees. One of the things that one needs to consider in 
making these decisions is how much staff does one need. So, for 
example, the current structure in the NSC does not have 123 
people working on terrorism.
    Now, the size of the budget for the drug czar's office--for 
the drug war and the size for the terrorism war is relatively 
compatible in terms of numbers. There is not great differences 
in terms of resources being committed, and many different 
segments of the Federal community are involved and the State 
and local communities and international interaction. So lack of 
staffing can be a serious problem to the effectiveness of an 
office of that type.
    At the same time, people in the drug czar's office would 
argue for more flexibility in staffing, that Congress currently 
on the appropriations process has put a limit of 124 people, 
and each additional full-time employee slot needs authorization 
from Congress. So from the perspective of people in an office 
of that type, they would like usually to have more flexibility. 
Of course, from the viewpoint of congressional oversight, this 
enables the Congress to control the size of the office and 
influences kind of its growth.
    Mr. Halloran. Your work on foreign government or foreign 
approaches to this problem, did you find a more--in any 
instances, a more comprehensive order or unified threat 
assessment process than you found here?
    Mr. Rabkin. The answer is no.
    Mr. Caldwell. The answer is no. I think when we talked to 
countries about how they came up with their decisions in terms 
of leveraging existing resources rather than creating new 
programs and capabilities, some of that process might have gone 
into their decisions on other areas. For example, they make 
decisions that they had robust disaster management assets in 
place or robust hazardous materials, emergency response 
capabilities, and perhaps because they had already made those 
types of investments, they decided that those were the ones 
that they would then leverage to deal with the terrorist 
involving chemical or biological materials.
    Mr. Halloran. Thank you.
    Mr. Shays. Thank you. We are joined by Mr. Blagojevich, but 
I would like counsel to ask questions on this side. David 
Rapallo has some questions.
    Mr. Rapallo. Mr. Rabkin, on the importance of a threat and 
risk assessment, it is comprehensive and includes threats to 
national, international and military resources. Is it your 
position that any prioritization or any attempt by the 
administration to put programs in order based on the funding 
levels is flawed without this type of assessment?
    Mr. Rabkin. I wouldn't say that it is flawed, but I think 
it could benefit any decisionmaking process on where additional 
dollars are going or would help--would be helped by having this 
kind of an assessment. It would also be helpful over time, as 
threat changed or as the overall risk threat level changed, it 
would be helpful in identifying whether the funding level 
needed to change accordingly.
    Mr. Rapallo. Would any proposed change that the 
administration suggests not be as comprehensive?
    Mr. Rabkin. I would say until we have a comprehensive 
assessment which would better guide, and until we have a 
national strategy in place that would better guide some of 
these resource decisions, I don't think that it is wise just to 
suspend making those decisions. The government has to do what 
it feels best, the agencies are in a position, although it may 
not be well coordinated and focused on a commonly accepted 
goal, but at least they are moving forward in some fashion. I 
don't think that it would be responsible just to stop that and 
wait until we got a strategy, a plan, or better assessment.
    Mr. Rapallo. One of the later panelists has in his written 
testimony a quote by CIA Director George Tenet before the 
Senate, saying chemical and biological weapons pose arguably 
the most daunting challenge for intelligence collections and 
analysis. There are and will remain significant gaps in our 
knowledge. As I have said before, Tenet said before, there is 
continued and growing risk of surprise.
    I am wondering is a comprehensive threat and risk analysis 
with threats to national, international and military targets 
even possible? And if it is, would that lose too much detail to 
be useful?
    Mr. Rabkin. I think it becomes a question of defining how 
much detail is going to be in it, but I think it would be 
possible. It would seem to me to be a compilation of what is 
known about that threat that Mr. Tenet was talking about. That 
kind of information is very helpful in making this kind of an 
analysis and assessment.
    As they fill in the gaps, as they get more--as the 
intelligence community gets and analyzes more information about 
this and learns more about it, they can use that for the 
assessment to better direct the efforts and resources of the 
rest of the executive branch.
    Mr. Rapallo. Mr. Perl, do you have any thoughts on this 
that you would like to add?
    Mr. Perl. No.
    Mr. Rapallo. One thing that we don't complete a threat and 
risk assessment for is to identify duplication. Do you see any 
duplicative efforts as far as intelligence gathering and that 
sort of thing related to what we heard this morning?
    Mr. Rabkin. I don't have any evidence of duplication. We 
have not looked at whether the intelligence community is 
duplicating efforts in their data gathering and analysis 
activities. We have noted duplication in other areas, first 
responder training, for example, and have reported to this 
committee on that. But not on the intelligence side.
    Mr. Perl. You previous question on whether I have any 
thoughts, that is, on the previous panels this morning, the 
issue of the need for flexibility was raised. The variability 
of the threat, the changing nature of it and the need for 
flexibility in our response. And one of the concerns is that if 
one does long-term planning, there will always be a certain 
amount of disconnect between real immediate threats and the 
long-term planning. So whatever the process is, there has to 
be--it would be important to build in a process of periodic 
review and some flexibility in the way funds can be shifted.
    Mr. Rapallo. You don't think that exists with the working 
groups within the NSC structure?
    Mr. Perl. Budget cycles tends to be a little bit longer. 
The working groups have the ability to move things around, but 
now when there are shortfalls, what happens is that the process 
is usually, or hopefully from the agency perspective, made up 
by the supplemental appropriations process. To some degree, I 
am not suggesting that agencies wouldn't take actions in the 
national interest because they may not have the funding for it, 
but whenever agencies take actions, funding is a consideration.
    Mr. Rapallo. Thank you.
    Mr. Shays. Gentlemen, I would like to just throw out one 
type of threat. Please tell me how it fits into the overall 
response to terrorism and that is, the military's determination 
that they need to immunize all military personnel with anthrax. 
Would a comprehensive sense of what our threat is get us to be 
able to put that in some focus?
    Mr. Rabkin. The policy decision that Secretary Cohen made 
to require that all military personnel be immunized against 
anthrax was based on the military context, the likelihood that 
military troops would be involved in a situation where state 
enemies would use anthrax as a biological weapon. And that the 
only viable alternative, the only viable option for them to use 
was vaccination; that because of the detection period and the 
kind of time that takes place and the delay in recognizing 
symptoms, that that was the only solution.
    The more information that DOD has about who has anthrax and 
who is in terms of state enemies and who is likely to use it 
provides more justification or more information upon which that 
policy can be reviewed. Similarly, other information about the 
safety and efficacy of the vaccine and the administration 
period, the troubles that the manufacturer is having providing 
an adequate supply of the vaccine, all of these bits of 
information that were not available when the original decision 
was made, can also be useful in revisiting the decision. So I 
think as most policy decisions, just about any policy decision, 
the more information you have, the more you can reflect on 
whether it is an appropriate decision and whether it needs 
revisiting.
    Mr. Shays. Does anyone else want to respond before I 
followup?
    Mr. Perl. I agree, basically it is a question of the 
probability and the reality of anthrax being employed, and this 
is a decision that the Secretary of Defense has made. I am not 
qualified to make that decision. But if it is a high 
probability, logically, it would seem that U.S. troops should 
be vaccinated because this is a very contagious disease.
    Mr. Shay. That is my followup. Is the vaccine a modern 
vaccine or a 1950's vaccine, and can we reproduce it to cover 
all of our troops. But it gets into that fact that we have 
civilians and to what extent should civilians who are in these 
theaters be vaccinated. I am just trying to get a sense of how 
a master focus on the threat, a master plan focus on the 
threat, integrates the response that the military has to have 
and the whole argument that the military has to respond to it, 
that this is a biological agent that can be produced by a 
terrorist in those theaters. For instance, the State Department 
people, do we require State Department people to take this 
vaccine?
    Mr. Perl. Not to my knowledge.
    Mr. Rabkin. It is voluntary at the State Department.
    Mr. Shays. I am trying to get a sense in your judgment of 
how we integrate what the military sees versus--and the threat 
to their own military personnel versus all other Americans.
    Mr. Rabkin. If we talk about the model that the Department 
of Defense used to make the decision, they assess likelihood 
that the threat would be used, the consequences if it were 
used, they looked at alternatives, is there any alternative 
available that could be used other than a vaccine to allow the 
troops to survive such an attack and be effective, and the 
decision was made back in 1997, I think, based on information 
and assumptions at that time.
    Mr. Shays. And they left out some very important aspects. 
They left out the aspect whether they should proceed with an 
older generation vaccine or develop a new one. They left out 
whether they should do a vaccine where they knew they could 
have supply, and the reason that I am asking is not to critique 
the Department of Defense, but to understand if a comprehensive 
threat analysis would lead us into the same mistake or whether 
we would have been spared the mistake the military has made. 
The military has made a mistake. They have approximately 1 
month's supply to 6 months, depending on to what extent they 
use it.
    I am asking, in your judgment, a comprehensive analysis of 
the need and a coordinated effort would have enabled us to, in 
responding to terrorism, come to a different response or to 
take into consideration things that the military left out?
    Mr. Rabkin. I am not ready to agree that the military made 
a mistake when it passed the policy. There certainly have been 
problems in implementing the policy in terms of securing a 
continuous supply of the vaccine to be able to administer it as 
it was intended.
    Mr. Shays. Let me ask you not to--I'm not trying to make a 
major point. You are not prepared to say that they made a 
mistake, because you don't have the knowledge, or that you have 
the knowledge but just don't know what the conclusion is. Is 
this something that you have any--do you have significant 
expertise on this issue?
    Mr. Rabkin. GAO has done some work on this issue, both in 
terms of the safety and efficacy of the vaccine as well as the 
administration of the program, and I am speaking from that 
basis, the work that we have done.
    We have not reached the conclusion, Mr. Chairman, that the 
Department of Defense made a mistake in adopting the policy 
that it did. We have reached conclusions about--there are 
unanswered questions about the safety and efficacy of the 
vaccine. There were improvements needed in education of the 
troops about the vaccine, about adverse reporting--reporting of 
adverse reactions to the vaccine, etc.
    But in the context of the threat and risk assessment, I 
think that if you apply the model that we are talking about of 
a threat and risk assessment and risk management to the 
specific issue of military troops facing a potential biological 
or anthrax threat in a combat situation, I can see how the 
decision was made. And that model was used and we may not agree 
with the way that the decision was made and the assumptions.
    Mr. Shays. I guess my problem, in my judgment, after having 
countless hearings on this issue, whatever model they used, was 
a flawed model, in my judgment. I am not saying that GAO has 
made that determination. I just wanted to know if the model 
that we will use for the civilian world will be a bit 
different, and in response to terrorism, because they are 
running out and they may not get a supply for a year plus. They 
are having a facility produce this that has to be solely 
dedicated to produce this, because it is a 1950's vaccine, so 
they can't produce anything else in that plant or certainly 
that area than this 1950's vaccine. I get the sense of your 
response.
    Mr. Perl. You raise a very interesting question. I am not 
an expert on chemical and biological warfare per se, but an 
important issue here is to what degree does military threat 
analysis input get factored into the health community's 
decision whether or not to issue vaccines nationwide.
    Mr. Shays. Right. Or to what extent is there the likelihood 
that anthrax will be introduced into this country and what 
obligation do we have to deal with that in this country, and 
are we preparing for that?
    Mr. Rabkin. That is the issue that I think the threat and 
risk assessment process and procedures would have to deal with. 
Take the information from the intelligence community about what 
is the risk to the United States, to the citizens of the United 
States for a terrorist attack using anthrax. If and when they 
get to the point that they feel that is an imminent, or enough 
of a potential that we need to do something about it, then we 
start considering alternatives and what is available. What are 
some of the countermeasures that are potential, and what are 
the costs and efficacy of those countermeasures and those 
policy decisions could be made. Maybe we need better 
technology.
    Mr. Shays. Who would make that decision? I realized in the 
process of asking that question I don't know who would make 
that decision.
    Mr. Rabkin. Under the legislation passed yesterday, it 
might be that council on domestic terrorism preparedness, 
because part of their responsibility would be to take 
information about the threat and to make risk assessments and 
to oversee some of the investment decisions that are being 
made, and it would have representation from the different 
communities, both the intelligence community, the health 
response community, the military community. So that might be an 
avenue for making that decision.
    If you look back at swine flu, for example, and how 
decisions were made back in the 1970's on that issue, it is an 
interagency--information comes up from the agencies and 
decisions are made at the highest level in the executive and 
legislative branch.
    Mr. Shays. The difference is, one was to respond to a 
natural threat versus one that would be responding to a 
terrorism threat, and it introduces some major policy 
decisions.
    Let me ask you, is there anything that you would like to 
respond to that we didn't ask? Something that you prepared for 
that you think is important for us to know?
    Mr. Rabkin. One of the issues that we wanted to get across 
was the need for a national strategy.
    Mr. Perl. I think the committee has done a wonderful job in 
covering the issues.
    Mr. Shays. We appreciate you for coming this morning and 
this afternoon.
    Mr. Rabkin. Thank you for the opportunity to testify.
    Mr. Shays. We will move now to the second panel. I call our 
second panel, Ambassador Paul Bremer, chairman, National 
Commission on Terrorism; former Ambassador at large for 
counterterrorism; and Mr. Michael Wermuth, RAND Corp., senior 
policy analyst; Mr. John Parachini, Monterey Institute of 
International Studies, executive director; and Mr. W. Seth 
Carus, National Defense University, senior research professor.
    I am going to ask you to stand and I will swear you in.
    [Witnesses sworn.]
    Mr. Shays. Ambassador, go ahead.

   STATEMENTS OF AMBASSADOR PAUL BREMER, CHAIRMAN, NATIONAL 
 COMMISSION ON TERRORISM; MICHAEL WERMUTH, RAND CORP., SENIOR 
     POLICY ANALYST; JOHN PARACHINI, MONTEREY INSTITUTE OF 
 INTERNATIONAL STUDIES, EXECUTIVE DIRECTOR; AND W. SETH CARUS, 
     NATIONAL DEFENSE UNIVERSITY, SENIOR RESEARCH PROFESSOR

    Mr. Bremer. Thank you. The National Commission on Terrorism 
delivered its report to Congress and to the President on June 
5. We addressed the threat as we saw it, among other things, 
and the main point that we made in that report was that the 
threat is changing and becoming more serious, and we paid 
particular attention to catastrophic terrorism.
    I was asked to comment on three areas of interest to this 
committee: First, the development of threat assessments; 
second, the question of whether it would be valuable to have a 
national threat assessment; and then a few words on the budget 
process.
    On the development of threat assessments, it is obvious 
that good intelligence is the very heart of an effective 
counterterrorism policy. You can't have a counterterrorism 
policy without good intelligence, particularly if you want to 
prevent attacks, and we focused on preventing attacks in our 
commission. The commission that Governor Gilmore chairs is 
looking at dealing with the consequences of attacks. We focused 
on prevention.
    In no area is intelligence more difficult and more 
dangerous and important than terrorism. We examined the Federal 
Government's look at intelligence rather in depth, and we had 
two concerns, both of which related to the capability and 
independence of intelligence analysis.
    The first one, Mr. Chairman, was the question of whether or 
not the creation of the counterterrorism center at the CIA in 
the mid 1980's by putting together people from both the DI side 
and the DO side of the agency would, in some way, impinge on 
the intelligence side's ability to make objective analysis of 
the terrorist threat. There was a concern that by being, in 
effect, co-housed with the operations people, the intelligence 
people might become either overwhelmed by the tactical 
operational demands of the operations side of the 
counterterrorism center, or become, in effect, less pure in 
their intelligence outlook, that their actual analysis would 
become tainted in some way by being associated with the 
operations people.
    The second concern we looked at was whether it was wise of 
the government to disestablish the National Intelligence 
Officer for Terrorism which was done in the early 1990's. And 
we were concerned----
    Mr. Shays. Where did that office----
    Mr. Bremer. That office was a member of the National 
Intelligence Council [NIC]. It was disestablished in 1991, but 
don't quote me on the year.
    The concern there was that the issue would lose its place 
at the high table of the intelligence community, the NIC, and 
would we lose the capability, therefore, to conduct strategic 
level analyses of the terrorist threat?
    The results of our study was that we believe that the 
counterterrorism center at CIA has, in effect, been successful 
at integrating the DI side of the House without impinging on 
its ability to conduct objective and useful intelligence 
analysis of the foreign threat.
    In fact, they established a group within the 
counterterrorist center, which is dedicated solely to doing 
that, and until recently, that group was headed by a person 
from another agency, which gives it a good life and some 
independence.
    On the question of the national intelligence officer, we 
talked to all of the consumers around town and found, in fact, 
that they were very satisfied with the outcome of the 
counterterrorism center at CIA and did not believe, which sort 
of surprise me, that we should reestablish a national terrorist 
officer. And so we did not recommend that in our commission. We 
believed that as long as the CTC core group can keep its 
independence, there is no reason to change the setup. We did 
make some recommendations relating to how we go about 
collecting intelligence aboard and which are somewhat beyond 
the area I was requested to talk about today.
    Second, would there be value in having a national threat 
assessment, the question that you asked this morning and again 
this afternoon. We examined the FBI's handling of intelligence 
comparable to looking at the CIA's handling of intelligence 
abroad, and concluded that the FBI does a good job of 
disseminating threat warnings, immediate threat warnings when 
they are received. They get these out to the community quickly.
    The FBI is less good on understanding and disseminating 
more general intelligence relating to the terrorist threat. 
Part of this is a cultural issue. The FBI is a law enforcement 
agency. Their job, they are trained to make cases, they are 
prosecutors and they want to be sure when they collect evidence 
as they call, intelligence, as you might otherwise call it, 
that they have a good chain of custody over that evidence and 
they don't, therefore, have an instinct to share it out.
    We made recommendations here also related to the FBI 
establishing a cadre of officers who would, in fact, 
disseminate that intelligence.
    We took note of the repeated suggestions by the GAO over 
the past few years that the Department of Justice produce an 
integrated national threat assessment. To my knowledge, this 
has not been done. I think, Mr. Chairman, that such a threat 
assessment could be useful in giving Congress a tool to 
evaluate whether the budgets for counterterrorism put forward 
by the Federal Government are well considered in light of the 
likely threats and not the vulnerabilities. And I recognize the 
difficulty of producing such a national assessment, and I know 
that the agencies have a preference for doing a sort of rolling 
assessment, as you heard this morning, rather than doing--it 
seems to me that it is not an either/or question. I think you 
basically have to do both. I don't think that there is a 
choice.
    I think a national assessment would be good if it could be 
put together and give a view as to whether the GAO's model is 
the right model, but it should not be beyond the wit of man to 
figure out how to have a national assessment when, taking off 
my chairman's hat at the commission and speaking as a taxpayer, 
when I see a budget of $11 billion and rising, as your 
colleague used to say, we are getting into real money now. It 
seems to me that Congress has a legitimate question to know 
whether that money is being well spent.
    On funding for counterterrorism, we did not have time, Mr. 
Chairman, to look deeply into that $11 billion budget. We did 
reach some conclusions about the individual budgets of CIA, FBI 
and NSA, which are in our report, but it did seem to us that 
the budget process at both ends of Pennsylvania Avenue is 
pretty flawed. In the executive branch the problem is that the 
national coordinator, and I don't know if this is going to be 
solved in this legislation that is before the House, the 
national coordinator lacks budget authority and political 
responsibility, and it seems to me whatever solution there is 
to the problem of coordinating a national strategy, it must be 
directed by somebody who is politically responsible, therefore 
nominated and approved with the advice and consent of the 
Senate and somebody who has real budget authority.
    Down at this end of Pennsylvania Avenue, congressional 
oversight is fragmented among at least 12 committees in both 
Houses, so we recommended that both ends of Pennsylvania Avenue 
need to get more focused on this. Basically those are my 
opening remarks, Mr. Chairman.
    Mr. Shays. Thank you.
    Mr. Wermuth.
    Mr. Wermuth. Thank you, Mr. Chairman. I will also be brief, 
and I can probably be very brief by simply identifying myself 
with your opening remarks and passing to the next witness, and 
will likewise address threat assessments and the benefit of 
having an integrated threat assessment. I agree with Ambassador 
Bremer that the international piece works pretty well. We 
should be fairly comfortable that the process works well. You 
can argue and sometimes experts do argue with conclusions that 
are reached in some of those contexts, but the process is 
tested and proven and we can have some comfort in that through 
the national intelligence estimate process that is conducted 
with the support of the CTC and the Central Intelligence 
Agency.
    Currency perhaps is another question. Given the fluid and 
ambiguous nature of potential threats from terrorists, you may 
ask whether the process, perhaps, is too lengthy and too 
cumbersome to provide a level of currency as threats may change 
from time to time in the international context. And as we have 
heard already today, and as I am sure you heard in closed 
session this morning, I am certainly not as comfortable about 
how that process works on the domestic front.
    The FBI has that responsibility. You have already heard 
that the FBI is taking some steps to fulfill that 
responsibility more effectively, but as Ambassador Bremer has 
mentioned and Mr. Rabkin mentioned, they have not gotten there 
yet. Likewise, in my written testimony, I used the term 
``cultural issue'' in describing perhaps the FBI's full lack of 
understanding of how this process works. There are some 
collaborative efforts. I think it was probably mentioned in Mr. 
Turchie's unclassified testimony about how the FBI, at least, 
is swapping fairly senior people with the Central Intelligence 
Agency in an effort to learn more about good analytical 
processes, best practices, if you will, in trying to craft 
threat assessments that are relevant, that are comprehensive 
enough to be able to help lead some of the decisions, both in 
the executive branch and in the legislative branch, in terms of 
priorities and particularly for funding applications. But they 
are still not there yet, and I was, likewise, taken by the 
paragraph that your counsel mentioned in one of his questions 
earlier about the fact that the FBI doesn't believe that a 
broad threat assessment will be very useful.
    I just happen to disagree with that and agree with Mr. 
Rabkin and Ambassador Bremer that you can have both. You can 
have a broader assessment that will help guide some of the 
broader priorities and resource decisions as well as having the 
more operational and tactically focused threat and warning 
pieces that would go along with that.
    So we really don't have a fully integrated assessment yet, 
one that is seamless from the international into the domestic, 
recognizing that there are some restrictions and barriers about 
how you do all of that. But we really do need one, in my 
opinion, and we can do a better job of it, the government can 
do a better job of it, all of the agencies, and, in my view, do 
that without infringing on civil liberties, without being 
intrusive or overreaching where the agencies are concerned, and 
without violating the very clear restrictions on the foreign 
intelligence's community ability or restriction prohibitions on 
them from collecting intelligence domestically.
    As to the Chair's question, is funding to combat terrorism 
being properly directed? I am afraid I have to answer that with 
a question. How can we tell? You have heard all of the 
witnesses say it so far. We don't have a national strategy. We 
don't even have a comprehensive Federal piece of a national 
strategy, and no amount of touting of Presidential decision 
directives or macro budget submission like came up here on May 
18th, the Attorney General's 5-year plan, where I am not sure 
where that stands now, none of that amounts to a national 
strategy. There is no good coordination mechanism. The NDPO, 
the National Domestic Preparedness Office, simply has not 
worked. It was probably misplaced in the first place, buried 
that far down in the structure of the FBI without the kind of 
political accountability and authority that they needed. There 
is no one in charge. Interagency working group meetings, 
endless meetings, is simply not sufficient, in my view, to 
resolve the problem.
    I know, Mr. Chairman, that you have been frustrated before 
in hearings, including one that I attended on March 22nd, where 
you asked some senior Federal officials who is in charge, and 
you really didn't get a clear answer because it is not clear, 
even at the Federal level, who is in charge.
    So we need to find a way to get our collective Federal act 
together and then provide the national leadership to bring in 
the State entities to craft a nationally oriented strategy that 
can be used by every response entity everywhere in the country.
    Mr. Chairman, with that I will stop. Thank you again for 
giving me the opportunity to participate today.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. Wermuth follows:]

    [GRAPHIC] [TIFF OMITTED] T4263.029
    
    [GRAPHIC] [TIFF OMITTED] T4263.030
    
    [GRAPHIC] [TIFF OMITTED] T4263.031
    
    [GRAPHIC] [TIFF OMITTED] T4263.032
    
    [GRAPHIC] [TIFF OMITTED] T4263.033
    
    [GRAPHIC] [TIFF OMITTED] T4263.034
    
    [GRAPHIC] [TIFF OMITTED] T4263.035
    
    [GRAPHIC] [TIFF OMITTED] T4263.036
    
    Mr. Shays. Mr. Parachini.
    Mr. Parachini. Thank you, Mr. Chairman, for convening this 
hearing. There are a number of things ongoing and have been 
ongoing since 1995, and now is an appropriate time to push back 
and evaluate what are we doing right and wrong. I think what is 
missing from our national discussion on terrorism is a regular 
national predecessor. How much is enough remains an open 
question.
    As one renowned scholar in the terrorism field has noted, 
without a firm understanding of the threat based on rigorous 
ongoing reviews of an evolving or changing terrorist behavior 
and capabilities, continued efforts to address this problem may 
prove as ineffective as they are misplaced. So a comprehensive 
threat assessment that integrates information on both domestic 
and international terrorist threats are a baseline tool.
    At the moment, far too much of the government's policy on 
terrorism is driven by perceptions of worst case scenarios. 
Inordinate attention to vulnerabilities may be skewing 
resources in ways that do not effectively add to the 
government's efforts to protect our personnel and the 
facilities of private businesses and citizens at home or 
overseas. Producing a comprehensive and integrated national 
threat assessment which takes into account vulnerabilities as 
well as the capabilities and motivations of terrorists, will 
improve our national understanding of the threat and should 
inform the President and the Congress, as they decide upon 
investments, in short and long-term programs. Policymakers 
prioritize spending and programming emphasis via a variety of 
tools, but intelligence is an essential one. The view of the 
intelligence community should serve as a critical baseline. 
Without a regular comprehensive and integrated threat 
assessment of security challenges posed by terrorism, 
policymakers will draw conclusions on raw and finished 
intelligence that comes across their desks. A regular terrorism 
threat assessment will lessen the possibility that long-term 
investments in program decisions are made according to the 
vicissitudes of raw intelligence and ensure, that at least on a 
regular basis, there is an intelligence community benchmark 
calibrating that threat.
    The OMB annual report on the spending is a useful document, 
but it is not a substitute for a national strategy. The various 
Presidential decision directives are useful, but in themselves 
a collection of documents put together at different times do 
not amount to a national strategy. So a national strategy is 
needed, and before you can have a national strategy, at least 
one of the tools has to be a comprehensive national threat 
assessment.
    Let me turn to the budget such that I can point out some 
elements of the OMB's report that should be improved with a 
national threat assessment, and hopefully this committee will 
work with the executive branch to improve the dialog on the 
U.S. terrorism policy. If you look at the various OMB annual 
reports on spending, you will find that the numbers do not 
track from year to year. That is one thing of clarification 
that would be very valuable, I think, for helping both the 
Congress provide adequate oversight to the American people and 
scholars like myself to track what the administration is doing, 
and it might help the administration keep on track what they 
are doing. This is not an easy task. OMB has made a great 
effort and the product is sound. It could be better.
    When you look at the overall budget figures thinking about 
a more thorough threat assessment, one of the things that comes 
to my mind about a national strategy is that we need to shift 
the emphasis about what we are doing. We are focused too much 
in my opinion on the back end of the problem, after an event 
has happened, and we need to think about a slight emphasis 
toward the front end. How can we prevent and preempt an attack 
from ever happening in the first place?
    The amount of dollars spent for things at the back end are 
more than at the front end. We need to shift the emphasis. I 
realize that we always want to hedge against the unexpected of 
something that we never want to happen, and lives can be saved 
if we are better at responding, but we have gone overboard in 
my opinion, because we don't have a good sense of a threat and 
we are worried about worst case, and so we spend too much on 
the back end, on the after event mop-up, and not enough is 
spent on providing the intelligence and law enforcement 
resources to try to prevent these events from ever happening in 
the first place.
    Let me conclude by indicating two things. In the rapid 
budget increases that have occurred in the last 3 and 4 years, 
it is very hard to evaluate whether budget increases of 300 
percent or 500 percent in various programs within department 
and agencies are appropriate, out of kilter or out of control. 
And at least a common threat assessment on a periodic basis 
would help provide a benchmark to help figure that out.
    Finally, in the research and development area, which is the 
most difficult, because some of the investments that you make 
now don't bear fruit for many years into the future, we have 
got to have at least some consensus that we are investing in 
the right things at this point in time.
    And at least some periodic regular national threat 
assessment would be a helpful way to ensure that. Thank you, 
Mr. Chairman.
    Mr. Shays. Thank you very much, Mr. Parachini. Your 
statement was fairly long. I appreciate you summarizing it. But 
it's an excellent statement, and that, of course, as will the 
others, be in the record.
    [The prepared statement of Mr. Parachini follows:]

    [GRAPHIC] [TIFF OMITTED] T4263.037
    
    [GRAPHIC] [TIFF OMITTED] T4263.038
    
    [GRAPHIC] [TIFF OMITTED] T4263.039
    
    [GRAPHIC] [TIFF OMITTED] T4263.040
    
    [GRAPHIC] [TIFF OMITTED] T4263.041
    
    [GRAPHIC] [TIFF OMITTED] T4263.042
    
    [GRAPHIC] [TIFF OMITTED] T4263.043
    
    [GRAPHIC] [TIFF OMITTED] T4263.044
    
    [GRAPHIC] [TIFF OMITTED] T4263.045
    
    [GRAPHIC] [TIFF OMITTED] T4263.046
    
    [GRAPHIC] [TIFF OMITTED] T4263.047
    
    [GRAPHIC] [TIFF OMITTED] T4263.048
    
    [GRAPHIC] [TIFF OMITTED] T4263.049
    
    [GRAPHIC] [TIFF OMITTED] T4263.050
    
    [GRAPHIC] [TIFF OMITTED] T4263.051
    
    [GRAPHIC] [TIFF OMITTED] T4263.052
    
    [GRAPHIC] [TIFF OMITTED] T4263.053
    
    [GRAPHIC] [TIFF OMITTED] T4263.054
    
    [GRAPHIC] [TIFF OMITTED] T4263.055
    
    [GRAPHIC] [TIFF OMITTED] T4263.056
    
    [GRAPHIC] [TIFF OMITTED] T4263.057
    
    [GRAPHIC] [TIFF OMITTED] T4263.058
    
    Mr. Shays. Mr. Carus.
    Mr. Carus. Thank you.
    Mr. Shays. Doctor, excuse me. I figure if you're a doctor, 
you deserve to be called that.
    Mr. Carus. Well, it's an honor to be asked to testify 
before your committee.
    Mr. Shays. Thank you. It's an honor to have you here.
    Mr. Carus. My remarks today will concentrate on the threats 
and responses associated with potential terrorist use of 
chemical, biological, radiological and nuclear weapons, or, for 
convenience, CBRN weapons.
    Let me emphasize that the remarks I'm going to make are my 
personal views and don't necessarily reflect the views of 
either the Department of Defense or the National Defense 
University where I work.
    Let me extract three of the subjects that I discuss in more 
detail in my prepared testimony, first the threat from state 
use of CBRN weapons and how it should affect our view of 
response efforts; second, the potential for terrorist use of 
such weapons; and finally, how we should think about developing 
responses in this arena.
    First I think it's important to keep in mind that the 
primary threat from CBRN weapons comes not from terrorists, but 
from hostile states. While there is considerable controversy 
about the prospects of terrorist use of such weapons, we know 
for certain that hostile states have acquired them, including 
several that the United States could face as military 
adversaries. For example, North Korea, Iran and Iraq are all 
assessed to have offensive biological and chemical weapons 
programs. Moreover the Department of Defense now believes that 
use of such weapons will be a likely condition of future 
warfare. So even if there were no terrorist threat, Defense 
would still need to make substantial investments in CBRN 
protection and mitigation capabilities.
    There are numerous circumstances where it would make sense 
for a state to attack or threaten to attack targets within the 
territory of the United States. An adversary might attack air 
and sea ports of embarkation to prevent the United States from 
responding to attacks in distant theaters of operation.
    Similarly a hostile state might believe that credible 
threats to employ such weapons especially against U.S. 
territory could deter the United States from intervening in 
their regions, making it safe for them to pursue aggression.
    Because of the potential for asymmetric use of these 
weapons by state adversaries, threat assessments focused 
exclusively on terrorism provide a skewed view of the challenge 
and are of little value in determining the appropriate level of 
resources required for response. Needed CBRN response 
capabilities probably will not change depending on the 
character of the perpetrator. A terrorist use of the biological 
agent may look identical to a covert release engineered by the 
operatives of the state.
    Let me now turn to a second issue, which is the threat 
posed by terrorist use of CBRN weapons. We must start with the 
assumption that our picture of the threat is incomplete and 
likely to remain so. The available evidence suggests it is 
extremely difficult to collect intelligence on some of these 
threats even when state programs are involved. As CIA Director 
George Tenet said earlier this year about chemical and 
biological weapons, there is a continued and growing risk of 
surprise. This reflects the difficult experience we have trying 
to uncover Iraq's programs despite highly intrusive 
inspections.
    For this reason we must recognize that the absence of 
evidence is not proof of the absence of threat. Given the 
difficulties associated with collection in this arena, we must 
expect surprises. Hence the right answer is to develop policies 
that do not depend on the ability of the Intelligence Community 
to accurately assess what is probably a--what is almost 
certainly a low probability, but potentially very high 
consequence of that.
    My views reflect some of the lessons of the research during 
the past few years on the illicit use of biological agents, and 
I'll make some specific comments about this. While the 
arguments apply to other so-called weapons of mass destruction, 
I'll admit they're primarily focused on the problem of 
bioterrorism. In terms of thinking about the threat, it's 
important to be clear that terrorist groups have shown limited 
interest in use of biological weapons, although there may be 
slightly more interest today than was true in the past. Thus, 
I've been able to identify fewer than 25 terrorist groups that 
are known to have shown any interest in biological agents. And 
only 751 people have ever been harmed in bioterrorism 
incidents.
    Second, while most terrorists are not interested in causing 
mass indiscriminate casualties, there have been a few 
terrorists who did want to kill large numbers of people, and 
they were constrained not by moral or political imperatives, 
but lacked the technical capabilities to accomplish their 
objectives. Thus technical limitations have been the real 
barrier of past use of biological agents.
    Contrary to views observe expressed that biological agents 
are trivial, easy to employ, it is still extremely difficult to 
develop an effective biological agent.
    Finally, there is a prospect that some terrorist groups 
might acquire more robust capabilities in the future. The 
number of people with biological experience is growing, as is 
access to appropriate facilities. Moreover a dedicated, well-
financed group might gain access to the needed technology from 
a state weapons program.
    It is perhaps significant that every country on the list of 
state sponsors of terrorism has shown at least some interest in 
biological weapons, and some have large and active programs. 
These considerations suggest it will be difficult to precisely 
delineate the bounds of the threat. While a threat clearly 
exists, there's is no way to reliably estimate the 
probabilities of use.
    Let me conclude by making a few comments about responses 
that are influenced by the preceding remarks. I strongly 
believe that policymakers, as I said, must be willing to make 
decisions regarding investments here, recognizing that they're 
not going to be able to have more than a general sense of what 
the threat is. As a result, there is a danger that we're going 
to spend too little and thus not have the required response 
capabilities, or spend too much and thus divert resources from 
other underfunded programs. For this reason I strongly believe 
that we should emphasize investments that will prove beneficial 
even in the absence of a CBRN attack.
    A model for such a program is the Epidemic Intelligence 
Service, a component of the Centers for Disease Control and 
Prevention that investigates disease outbreaks in support of 
State and local governments. The EIS was created 50 years ago 
because of concerns that the United States might be subjected 
to a biological weapons attack. Since its creation it has never 
detected a biological warfare attack on the United States, yet 
the EIS more than justifies its existence by contributions to 
the Nation's health.
    As it happens, much of the investment in CBRN response is 
being made in areas where it appears similar benefits will 
accrue. For example, CDC's Bioterrorism Preparedness and 
Response Program is devoting considerable resources to 
enhancing disease surveillance systems in public health 
laboratories. Strengthening these components of the public 
health infrastructure is certain to have a positive impact on 
the national capacity for responding to disease outbreaks. As a 
result many of the response investments will provide 
significant benefits even in the absence of the terrorism 
threat.
    In conclusion, let me make two points. First, our response 
efforts must reflect the uncertainties that inevitably will 
accompany attempts to assess the threat. Second, we should 
ensure that our responses will have merit even in the absence 
of terrorist attacks, either because they have a positive 
impact on the health and well-being of the American people, or 
because they address other threats such as state use of CBRN 
weapons. We have more confidence in the quality of our threat 
assessments. Thank you for your time.
    [The prepared statement of Mr. Carus follows:]

    [GRAPHIC] [TIFF OMITTED] T4263.059
    
    [GRAPHIC] [TIFF OMITTED] T4263.060
    
    [GRAPHIC] [TIFF OMITTED] T4263.061
    
    [GRAPHIC] [TIFF OMITTED] T4263.062
    
    [GRAPHIC] [TIFF OMITTED] T4263.063
    
    [GRAPHIC] [TIFF OMITTED] T4263.064
    
    [GRAPHIC] [TIFF OMITTED] T4263.065
    
    [GRAPHIC] [TIFF OMITTED] T4263.066
    
    [GRAPHIC] [TIFF OMITTED] T4263.067
    
    [GRAPHIC] [TIFF OMITTED] T4263.068
    
    [GRAPHIC] [TIFF OMITTED] T4263.069
    
    [GRAPHIC] [TIFF OMITTED] T4263.070
    
    Mr. Blagojevich [presiding]. Thank you very much, Doctor, 
and all of you, for coming to testify today. I'd like to begin 
by asking Dr. Carus a couple of questions.
    Doctor, in our closed session earlier today with the FBI, 
they testified that they avoid all-encompassing national threat 
and risk assessments because they view them as inherently too 
broad-based to be of much practical value.
    My question to you is do you believe it would be possible 
or of any use at all to attempt a single comprehensive threat 
and risk analysis that encompasses all risks to U.S. interests, 
whether they be military, international and domestic?
    Mr. Carus. I think there clearly is an ability to create 
threat assessments that are more encompassing. I do agree with 
some of the statements made earlier that that comment reflects 
a cultural perspective that comes out of the background of the 
Bureau, which is not used to making these sort of broad, all-
encompassing assessments.
    I would point out, however, that while in the national 
security arena we're much more comfortable with making those 
assessments, they're not necessarily silver bullets. I mean, as 
one looks at the track record of the Intelligence Community 
there assessing foreign threats, the estimates are often wrong 
in significant ways. So while they help bound the problem, they 
don't solve the difficulties of uncertainties about what really 
is happening. And so, you know, as I said, they're not a silver 
bullet, but they do at least help bound the problem in a useful 
way.
    Mr. Blagojevich. OK. Mr. Parachini, Dr. Carus made a point. 
Would you like to give us a counterpoint on that?
    Mr. Parachini. The one point that I would add is that the 
beauty of a communitywide intelligence assessment is that it 
forces all the different parts of the community to come to a 
common standard. There are some divisions within the community 
now on the magnitude of the CBRN threat, and one of the ways to 
get a consensus on that is to go through the process of forging 
a national threat assessment.
    This is a different problem to conduct a national threat 
assessment on than it was the Soviet Union in the cold war or 
even North Korea's ballistic missile program now. There are not 
fixed things that you can look at with a variety of 
intelligence assets. It's a very fluid threat, so it's hard to 
get a sense about the nature of it. That doesn't mean that you 
don't try. That doesn't mean that you don't revisit it. That 
doesn't mean that you don't try and craft some standard of 
which evidence is to be evaluated.
    Mr. Blagojevich. In your initial statement, Mr. Parachini, 
you suggest that increasing emphasis should be placed on the 
front end of the program through preemption of attacks and 
prevention of attacks; less emphasis should be placed on the 
back end of the problem with respect to the postattack 
consequences of management. How is it that you can make a 
proposal like that if the comprehensive threat assessment you 
recommend has not been done?
    Mr. Parachini. Well, I think there are bits and pieces of a 
threat assessment out there. I think the Intelligence Community 
has that. We at the institute have been looking into all of the 
historically noted cases of chemical and biological weapons 
terrorism; interviewing the terrorists, the law enforcement 
officials; reading the court record, everything the terrorists 
have written. And the magnitude of the threat we get from 
looking at the historical record looks different than that 
which we read about in the newspapers or hear from some public 
officials.
    I'm not suggesting that we stop emergency preparedness. I 
think that's very important. I'm just suggesting that we try 
and have a few more tools such as diplomatic tools, law 
enforcement tools, and intelligence tools which cost less, and 
that we develop those a little more and not go overboard and 
spend so much money that we're having a little trouble keeping 
account of on the domestic preparedness side.
    I think what Dr. Carus suggested about dual use investments 
on the preparedness side are very good, those things which help 
contribute to the Nation's public health, for example, but also 
give us the ability to address bioterrorism. Those are the 
examples of postevent investments that we should be making.
    Mr. Blagojevich. Ambassador Bremer, I noticed the Congress 
and indeed even this committee did not escape the Commission's 
review. Your support--your report suggested that Congress 
should reform our system for reviewing and funding 
counterterrorism programs. And the point you have raised is a 
good one, which is that Congress ultimately has responsibility 
for doling out the money, so we should say how we want it spent 
and what we want it spent on. How can we organize ourselves 
here in the Congress to better execute the mandate you're 
suggesting?
    Mr. Bremer. Well, we in our Commission made--we sort of 
wimped out actually, Congressman. We basically thought it was a 
bit presumptuous of us, even though we were a creature of 
Congress, to suggest how Congress organize itself. We suggested 
it, at least as a first step, that the appropriations 
committees in the two Houses of Congress ought to appoint 
senior staff members to do some work from both Houses and from 
both parties to do some sort of thinking through together about 
cross appropriations.
    One could also suggest the relevant committees try to hold 
joint hearings, but that tends to not get very far up here, in 
my experience.
    I think what we're really saying is this: The executive 
branch, in our view, is not ideally organized to fight 
terrorism. To some degree that is Congress's fault because you 
have these stovepipes in this town that run from various 
committees in Congress to various parts of the Federal--the 
executive branch, and those stovepipes tend to channel 
responsibility and budget authority particularly along very 
narrow lines, whereas if you're going to deal with terrorism as 
a national problem, whether it's on the basis of a national 
threat assessment or anything else, you're going to have to 
start cross-cutting at both ends of Pennsylvania Avenue.
    Mr. Blagojevich. OK. I will ask Larry Halloran, the 
majority counsel, if he has any questions.
    Mr. Halloran. Did you want to put this letter in first?
    Mr. Blagojevich. Could I do that? Thank you very much, 
Larry.
    What I would like to do is offer a letter and make this 
letter a part of the record. This is a letter that OMB has 
asked that we submit for the record to the subcommittee 
outlining their role and explaining their budgetary review 
process. So I'd like to offer this for the record.
    Mr. Halloran. Nobody is going to object.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4263.071
    
    [GRAPHIC] [TIFF OMITTED] T4263.072
    
    [GRAPHIC] [TIFF OMITTED] T4263.073
    
    [GRAPHIC] [TIFF OMITTED] T4263.074
    
    [GRAPHIC] [TIFF OMITTED] T4263.075
    
    Mr. Blagojevich. I got the gavel here. Nobody here to 
object. Oh, there he is. Perfect timing. I'm from Chicago. 
That's how we do things.
    Mr. Shays [presiding]. Is a dead body going to ask a 
question?
    Mr. Blagojevich. Not until after he votes. I already asked 
him to vote for me.
    Mr. Halloran. Mr. Bremer, you said the Commission 
recommended--let me paraphrase--in effect that the FBI might 
need some sharing lessons. It has been noted in other forums as 
well. What--did the Commission come across any circumstances 
where the FBI really close-held information that might have 
been useful in the response scenario that you're aware of?
    Mr. Bremer. We in the Commission did not come across those, 
but I've had the personal experience when I was in government 
of that happening. And I have to say I think in most cases the 
FBI is withholding the information for perfectly legitimate 
reasons, which is to protect the integrity of the evidence that 
they're collecting to make a case.
    Mr. Halloran. That gets to my next point that you made and 
I think Mr. Wermuth made in his testimony as well is the 
difference between evidence and intelligence, and that the FBI 
as lead agency in domestic counterterrorism may not possess the 
skill sets necessary to perform the tasks they're being given. 
What other limitations besides a certain degree of justified 
paranoia does the FBI bring to the job that may hinder them in 
doing what they're being asked to do in this field?
    Mr. Bremer. Some of the things are very mundane. For 
example, when an FBI in a field office in the United States 
interviews a terrorist suspect, he fills out a 301 
interrogation form. The 301 form stays at the field office. It 
almost never comes to headquarters. There's simply no mechanism 
for it happening. One would imagine computers that would allow 
that to happen in these days and ages.
    What we suggested was the FBI basically faces a comparable 
problem to the CIA. CIA collects intelligence abroad in which 
they must protect the sources and methods, but the intelligence 
has to be gotten around to the Intelligence Community and to 
decisionmakers. CIA has resolved that problem across the years 
by developing a cadre of reports officers. These are 
specialized officers in the agency, stationed in the stations 
abroad and here at home, whose training and job it is to look 
over the intelligence and figure out how to disseminate it, how 
to make it clean enough to get out to the community.
    FBI does not have a comparable reports officer function, 
and we suggest that such a function should be created with a 
special cadre in the field offices here, which would begin to 
break down the cultural barrier of seeing themselves only as 
investigators trying to make cases.
    Mr. Halloran. Anyone else want to comment on that?
    OK. In the letter from OMB that Mr. Blagojevich put in the 
record, with regard to threat assessments, OMB describes this 
as an ongoing process based on some cases of competing views of 
different analysts, some of whom are witnesses before your 
committee today. We believe this approach is preferable to a 
formal consensus assessment. Competing assessments of the 
terrorist threat are more likely to stimulate the creative 
thinking necessary to combat this unconventional national 
security challenge.
    Do you agree with that?
    Mr. Bremer. Well, I actually do agree with the idea of 
having--I think you can have both again. I do not agree the 
objective of a national threat assessment should be consensus. 
There I disagree with Mr. Parachini. I do not think that should 
be the objective, because then I think you get pablum, which is 
what you basically get out of any group of people if you tell 
them they have to agree. But I don't see any reason why you 
can't have a national threat assessment where they have 
competing views where they are strongly felt.
    Mr. Halloran. Anybody else?
    Mr. Parachini. In this particular instance there on the 
threat, on the biological agents that the various intelligence 
portion of the Intelligence Community see as likely, there has 
been a division. And there has been--there have been two 
agencies that have held different views from other parts of the 
community. And so my question to OMB would be, well, when you 
see that, then how do you decide to make various spending 
decisions based on the split in the community on a key thing? 
You just go ahead? Which is what has been done in this 
instance. Or--and while I take Ambassador Bremer's point about 
the danger of consensus is that you get something that's not 
very meaningful, somehow on hard issues you do have to draw 
some conclusions. People have to bring their evidence forward, 
and there has to be some common agreement on hard problems, 
like agents in which we need to respond to in which we're going 
to invest billions of dollars in developing vaccines and 
antibiotics. Otherwise we're going to make huge investments on 
partial intelligence assessments that may or may not be correct 
in 10 years' time.
    Mr. Bremer. I don't think that's the job of OMB. That is 
the job of somebody who's politically responsible to the 
Congress and the American people. He or she is going to have to 
sit down and look at those splits, and he or she is going to be 
held politically responsible to decide, OK, now agency A is 
right and agency B is wrong. But that's not the job of staff. 
That's not the job of somebody at the NSC who is not 
politically responsible. That is the job of somebody who has 
budget authority and political accountability up here.
    Mr. Carus. May I interject a common on this?
    Mr. Shays. Lower your mic, Doctor. Just lower the mic. 
Thank you.
    Mr. Carus. Because I think an example that John Parachini 
mentioned merits a little bit of elaboration. If you think 
about whether or not we should invest money in certain kinds of 
vaccines, you would come up with a very different answer if you 
just looked at the terrorism issue as opposed to just looking 
at the broader biological warfare threat issue. If you were 
just concerned about terrorists, you probably would say that 
smallpox is probably not a very likely threat agent because of 
the difficulties of obtaining access to it. But if you shift 
the focus and say what is the overall national threat from 
states, you would discover that there certainly is at least one 
state and probably multiple states, including several that want 
to do us harm, that possess smallpox, and therefore, from that 
point of view, the fact that we have a deteriorating supply of 
smallpox vaccine should be of great concern.
    I think if you go across the board, you would discover that 
if you broaden the focus from merely terrorism to the broader 
issue of potential use of some of these weapons against the 
United States either overseas or domestically, that you would 
come up with radically different answers about what's 
appropriate investment and responses.
    Mr. Halloran. I'm not sure I took your point there. Who 
else would use them besides terrorists? State sponsors and 
individuals?
    Mr. Carus. A state might use them. The Soviet Union had, we 
were told, SS-18 ICBMs loaded with smallpox. We are told that 
other states that may want to prosecute wars against us, 
including places like North Korea, perhaps Iraq, perhaps Iran, 
may have smallpox. Clearly they have incentives that have 
nothing to do with terrorist modalities for using or 
threatening to use a weapon of this kind. As a result, clearly 
the United States, both in terms of national security and 
Department of Defense concerns, as well as the broader 
protection of the American people, have a legitimate concern 
about the potential use of this particular agent.
    Mr. Halloran. Thank you.
    Let me ask another point if I can start a little debate 
here in terms of the extent to which in this--attempt to kind 
of know the unknowable, the--that the past is prologue, that we 
can project from what has happened, how many people have been 
injured in terrorism in the last 10 years, for example, or how 
much--how many have ever been exposed to a biological agent or 
at least intentionally to do harm. To what extent should that 
inform threat assessments today? Or is it your perception that 
it could at least draw us back from worst-case scenarios to 
some degree?
    Mr. Wermuth. I don't think you'd want to rely exclusively 
on historical incidents in forming current threat assessments. 
You need to have that perspective because it's an indication of 
who has used agents in the past. Aum Shinrikyo, you want to 
know about those as a basis for forming some conclusions, but 
you wouldn't want to use that as the basis for the overall 
threat assessment, because too much is happening from the 
technological standpoint, from a biogenetic engineering 
standpoint. You can use the historical perspective to help form 
some basis for developing the way you conduct threat 
assessments perhaps, but you wouldn't want to use them 
necessarily, particularly the----
    Mr. Halloran. It certainly could be a measure of the 
technical difficulty they face. I think we learned more about 
the difficulties of biological weapons from the Aum Shinrikyo, 
that is, from the potential lethality of a chemical weapons 
release in a subway system, did we not?
    Mr. Wermuth. No question about it.
    Mr. Shays. Would you all comment on the concept of when you 
deal with states, deterrence usually has an impact. Does 
deterrence have an impact with terrorists?
    Mr. Bremer. Mr. Chairman, we looked at this in the 
Commission in light of the changing threat because we believe 
that the threat is increasing from terrorist groups and less 
from direct states acting in terrorism. And I think you're 
right to say that in the last 20 years if there has been a 
decrease in overt state support for terrorism, it's really the 
result of a good comprehensive American leadership in fighting 
terrorism and in saying to states it can no longer be a 
justified way to conduct yourself in international relations to 
practice terrorism.
    It's a little hard to find those same levers against these 
groups because you can't call back your Ambassador to Usama bin 
Ladin. We don't have an ambassador. You can't cutoff exports to 
him. We don't knowingly export to him. He's not very likely to 
be very moved by even the most eloquently phrased demarche from 
the United Nations.
    So you really are pushed away from the classic sort of 
diplomatic and economic tools that we've used against 
terrorists for the last 20 years or so. And you therefore, in 
my view, have to pay more attention to intelligence, because 
the way you're going to be most effective against that guy is 
to know what his plans are, and the way to know what his plans 
are is to have a spy in his organization.
    That's really the heart of the matter. If you want to save 
American lives, you have to get good intelligence on what the 
terrorist plans are. They are not likely to be, particularly 
the new kind of terrorist, very susceptible to the concept of 
punishment by the rule of law, because many of them are living 
for, as in Aum Shinrikyo, sort of an apocalyptic view of the 
world that is not very susceptible to our kind of reasoning. So 
I come back again and again to the need for good intelligence 
being the most effective way to fight these new terrorists.
    Mr. Wermuth. I would simply add I think there is some 
deterrent value in at least exhibiting an ability on behalf of 
ourselves as a Nation to respond if a terrorist incident does 
occur, that there is some deterrence value there. If it looks 
like we're well organized, if it looks like we have a good game 
plan, if it looks like we are prepared to react and to 
administer justice very swiftly and very surely, I think that 
can have a deterrent effect on terrorists even beyond what 
Ambassador Bremer has mentioned.
    Mr. Shays. Any comments? Part of the reason I ask is that I 
find myself at these hearings thinking of a young man who ran 
against my predecessor years ago from Princeton who was able to 
go to the library and develop a feasible nuclear weapon that 
the experts looked at, and then they embargoed his--classified 
his basic term paper, but now we can get on the Internet and 
get information. And I just wonder if years to come we just--it 
won't be absolutely easy to make weapons of mass destruction. 
And then I just think of how you deal with the logic of that. 
Then I think of Beirut and the bombing of--the total 
destruction of the Marine barracks there. That individual was 
willing to drive the truck underneath and blow it up and 
himself with it.
    So I just wonder, deterrence doesn't strike me as being 
particularly effective for someone that is willing to kill 
themselves. It may be with the people that are sponsoring them. 
So I think I'm getting--the bottom line is what I fear is 
actually true. We used to respond to terrorism by dealing with 
the state-sponsored organizations, and now we don't quite have 
that same leverage. Not a pretty thing. So your point is in 
dealing with intelligence. Then I think that anyone who is 
willing to be a counter--a spy within an organization deserves 
the Medal of Honor, totally away from any resource dealing with 
crazy people, constantly in fear that he may be found or she 
may be found.
    Mr. Bremer. Not even the Medal of Honor, but more 
importantly he deserves to get American money. The current 
arrangement, as you know, Mr. Chairman, as we discovered in our 
report, discourages the recruitment of terrorist spies. The 
current CIA guidelines discourage the recruitment of terrorist 
spies, which we think is a very serious flaw in the current 
counterterrorist strategy.
    Mr. Shays. It's a bit off subject, but it's certainly 
something that's on subject in this committee. Maybe you could 
make the point in a little more depth.
    Mr. Bremer. Until 1995, when the CIA wanted to recruit an 
asset, as they call it, in any field, they had a procedure to 
vet that asset involving both the station and, as appropriate, 
people in Washington. In 1995, new guidelines were 
promulgated----
    Mr. Shays. By whom?
    Mr. Bremer. By the DCI at that time--which had the effect 
of making it much more difficult to recruit any kind of an 
asset. We reviewed this rather carefully both in Washington and 
in the field with serving agents and with retired agents, with 
junior officers and station chiefs, and found that despite what 
the CIA says, the fact of the matter is these rules have the 
effect of discouraging the recruitment of terrorist spies. So 
we recommend that these guidelines be rescinded in respect to 
the recruitment of terrorist assets.
    Mr. Shays. And?
    Mr. Bremer. The CIA has publicly stated that they do not 
believe these guidelines have the effect of discouraging 
assets.
    Now, I have profound respect for the Director of Central 
Intelligence, and I have told him what I would say to you to 
his face, which is I just think he honestly doesn't know what's 
happening out on point where these people are actually being 
recruited. The fact of the matter is young case officers are 
not encouraged to recruit terrorist spies, and I think that's a 
very serious problem.
    Mr. Shays. I would agree.
    What is the significance of overemphasis on a worst-case 
scenario? I mean, it's come up a few times. What are the 
distortions that result?
    Mr. Parachini. Well, the most likely event that we're 
facing is some sort of tactical--actually the Intelligence 
Community has consistently said the most likely event is a high 
explosive. In the sort of unconventional weapons, the most 
likely event is a poisoning. And the consequences that occur 
are not in the thousand casualties or hundred casualties, 
they're in the tens.
    I think one point the Gilmore Commission has made that is 
valuable on this, if you gear all of your preparation to this 
catastrophic attack, everything becomes a Federal event, and 
State and local resources are probably appropriate for most of 
the events that might occur. One.
    Two, we might then start to focus too much of our attention 
in the first responder world to the agents that are those in 
the programs of nation states. That may be appropriate at some 
level. We want to take some hedge against that, smallpox and 
anthrax. But the more likely thing to occur is for terrorists 
in our country or coming to our country to attack easy dual-use 
items, to get like tanks of chlorine or phostine or sodium 
cyanide, which are dual-use chemicals that are more readily 
available. So by doing these worst-case scenarios with these 
exotic nation state military program agents, we're focusing on 
the wrong thing.
    Mr. Shays. OK.
    Mr. Parachini. We have to do some focus on it because we 
have to take a hedge against it, but we need to shift the 
balance.
    Mr. Carus. May I add some comment, sir? I think it shows up 
in a great many areas if you're not careful about 
disaggregating the threat and not merely looking at worst-case 
scenarios. If you look at the issue of chemical threats, if the 
only focus is on the most lethal of military chemical agents, 
the nerve agents, what you lose track of is that the 
capabilities for responding to different kinds of chemical 
threats differs depending upon who you're looking at.
    One of the reasons why I think people have overemphasized 
the Department of Defense responses is because they focused on 
this small category of military chemical agents, when, in, fact 
most Department of Defense units have little or in many cases 
no capability for dealing with the broader range of toxic 
industrial chemicals. If you focus more on the toxic industrial 
chemicals, you discover that the broader-based capabilities of 
civilian and hazardous material units, whether they're working 
for the Department of Defense or for a local fire department, 
become much more salient in terms of understanding the 
response.
    Mr. Shays. Thank you.
    I think one area, unless it leads to something else, and 
that is the statement was made maybe by you, Mr. Wermuth, that 
national strategy is essential, national threat assessment is 
part of that. Or maybe it was--I'm not sure which, but it was--
--
    Mr. Wermuth. I think it was John Parachini, but I certainly 
agree with that.
    Mr. Shays. I just want to--this morning's hearing was not 
particularly satisfying, and I don't think any of you gentlemen 
were there, but the general sense was that I had--that's not 
something I can't disclose is there wasn't a buy-in into having 
a threat assessment, that that's kind of--it's an ongoing 
process, and we evaluate every day and so on.
    I get the sense from that, and I want to get you to respond 
to that, that each agency in a sense thinks it has their threat 
assessment as it relates to them, but they don't get it all 
together and try to figure out how their threat assessment 
works with other agency threat assessments, and then a more 
universal threat assessment.
    You all are looking at me like, what, is this guy crazy? 
You all were struggling to understand me, but I don't know if I 
made the point well.
    Mr. Wermuth. I think I understood, and I think there's a 
certain amount of validity to that observation. I believe that 
whether it's threat assessments or not or whether it's simply 
agencies assuming some scenarios and then using those scenarios 
to help inform the decisions about plans and resources, therein 
does lie the problem. If there is no comprehensive assessment 
that has been done that is recognized to be the assessment of 
the Federal Government, then agencies are pretty much left on 
their own to do whether they call it threat assessments or 
simply scenario building for helping to establish programmatics 
and the application of resources.
    That certainly is going on. I mean, HHS is an example of 
that on one hand; FEMA is another example, as you heard from 
GAO testimony before we came up here. So that's another good 
reason for the integrated threat assessment that has all of the 
players involved.
    And I just, from my perspective, make one other comment. 
You know, there is an obligation, too, for the government, 
particularly the national government, the Federal Government, 
to inform the American people about what the levels of 
threats--and I always use that plural, because there's no 
single threat--what the threats are. And without that good 
comprehensive threat assessment--right now the American people 
are basically informed by the entertainment media and the news 
media, if you can tell them apart, with these catastrophic 
kinds of events. And if that's not the real situation, then we 
ought to do a better job of letting the American people know 
what the probabilities of threats are and how they might be 
expected to respond in the event that an incident does occur 
across an entire spectrum of potential threats.
    Mr. Shays. OK.
    Mr. Parachini. I might add that the discussion on national 
missile defense and the threats we face from the ballistic 
missile programs of Iran and North Korea are helpful here. 
There have been very different views at different stages in 
this debate on the threat we face with missiles. Eventually 
there have been a number of communitywide assessments. There 
were then special panels and commissions that reviewed those 
assessments. I think all of that created a basis that was 
helpful for forging a national consensus on what to do, and I 
think if indeed we believe this problem is of that magnitude of 
a national security threat, then we should go through a similar 
process, because I think it benefited our decisions on national 
missile defense considerably. Might also benefit our decisions 
here.
    Mr. Shays. Thank you.
    Ambassador, when I was thinking of your earlier work as 
Ambassador-at-large on terrorism----
    Mr. Bremer. Counterterrorism.
    Mr. Shays. Counterterrorism. Sorry. Sorry. Sorry. So we 
don't have such an office.
    Mr. Bremer. The President used to make that mistake very 
often by introducing me as his expert on terrorism. I'm 
counterterrorism.
    Mr. Shays. I'm in good company then. Did you quickly 
correct him, or were you a little more subtle?
    Mr. Bremer. No, sir, I wasn't.
    Mr. Shays. Did that just all of a sudden--was that an 
office that was created out of the State Department's sensing a 
need, or had it existed for a long period of time?
    Mr. Bremer. No. It has a long and rather sorry story. There 
was an office created in the State Department in 1972 to deal 
with terrorism, which was buried down to the bureaucracy. When 
Vice President Bush chaired a commission at the President's 
request in 1985 to examine how we were structured in the 
government to fight terrorism, one of the recommendations of 
that commission was that there should be a clear agency 
function for State overseas and for Justice in the United 
States--that's still with us--and that the State Department 
should upgrade the office to an ambassador-at-large position 
reporting to the Secretary of State, and that office was then 
created. I was honored to be the first and, in fact, only--the 
only incumbent, because after the Reagan administration the 
office has been progressively downgraded. But in any case, 
that's where it comes from.
    Mr. Shays. Well, I don't have any other questions. I would 
invite you if you had a question that we should have asked or 
wish we had asked, I would invite----
    Mr. Bremer. May I make one point? It seems to me there are 
a couple of things that----
    Mr. Shays. Excuse me. You did not have any questions?
    Mr. Rapallo. Maybe just one.
    Mr. Shays. Let me have you respond, then I'll go to David.
    Mr. Bremer. There are a couple of things that, irrespective 
of whether there's a national threat assessment, Congress could 
do to deal with terrorism. One of them, which we recommended in 
our report, is to control biological pathogens better. The 
principle should be that biological pathogens in this country 
should be as tightly controlled as nuclear agents have been for 
the last 50 years. Currently that is not the case.
    I don't know where the legislation stands. Maybe one of my 
colleagues does now. There is legislation floating around to 
make it, in effect, illegal to possess biological pathogens 
unless you've got a legitimate need to have them. That is not 
against the law right now.
    Second we recommended--as many of my colleagues have said, 
it's not as easy to make a biological weapon as some people 
would lead you to believe. You need very specialized equipment, 
you need fancy fermenting equipment, you need aerosol 
inhalation chambers, you need cross-flow filtration equipment. 
That equipment is now controlled for export by the United 
States, but it is not controlled for domestic sale. We 
recommended in our report that Congress should look into 
controlling that.
    It seems to me these are good things to do irrespective of 
whether you have a national threat assessment, whether you have 
three national threat assessments.
    Finally, as Dr. Carus pointed out, it ought to be possible 
to look for things which are dual use, and we recommended one, 
which is perhaps of interest to you, Mr. Chairman, right now, 
which is the question of surveillance by the CDC. You have the 
West Nile fever back upon you again in Connecticut. The CDC has 
a national surveillance system. It is not modernized. It's not 
computerized. And there is virtually no such system overseas.
    It seemed to us we would want to know if West Nile fever 
was here whether it's here because you got dead crows or 
because somebody put it there. We would want to know if there 
was an outbreak of ebola that might be coming our way or of 
anthrax somewhere else.
    There is no international surveillance system. This is 
something we have recommended that the Secretary of State and 
HHS should look into. These are things which, it seems to me, 
are pretty easy to do. They don't cost a lot of money. They're 
dual use. They're not dependent on a precise definition of what 
the threat is, but they are good things to do. I would just 
commend them to your attention Mr. Chairman.
    Mr. Shays. It raises the point what committees did you 
present your report to?
    Mr. Bremer. We actually presented the report to the Speaker 
and the Majority Leader. I have testified before a number of 
committees in both Houses.
    Mr. Shays. Just totally focused on that report? In other 
words, the purpose of the hearing was for that report?
    Mr. Bremer. Yes, sir.
    Mr. Shays. Did you feel it got the kind of dissemination 
that you expected? I mean, was it----
    Mr. Bremer. It got quite a lot of attention. Some of it was 
misdirected by some of the early news reports, but we got a 
very good reception, I must say, on both sides of the aisle in 
the report in general on all the committees I've been before.
    Mr. Shays. Thank you.
    Any other comment or question that we--question we should 
have asked that you needed to respond to or something that you 
prepared for that would be eloquent if you shared it with us? 
Nothing. OK.
    Let me say--and I'm going to recognize David Rapallo--this 
has really been an excellent panel. Hopefully we'll be able to 
utilize your contribution in the future as well. It's been very 
interesting, and your statements were interesting; if not 
interesting in every respect, very informative and important 
for us to have. I'm talking about the written one. Your verbal 
one was very interesting.
    Mr. Rapallo. Just one quick followup for Ambassador Bremer. 
On the 95 CIA regulations I want to make sure there's a 
complete explanation, it didn't just happen in a vacuum. Could 
you give just a little description of why they were adopted, 
the rationale behind them?
    Mr. Bremer. The given rationale was concerns that some 
assets who had been engaged by CIA in a country in Central 
America had been involved in alleged serious crimes. And there 
was a view at that time that the head of the CIA and the DCI, 
that this put us at risk by having assets who might have 
committed crimes or might have committed human rights 
violations. And it was in response to those concerns, as I 
understand it, that these guidelines were issued.
    Mr. Shays. But the bottom line is you believe it's much 
harder to recruit.
    Mr. Bremer. The DCI at the time and the DCI today maintain 
that the intention of these was not to discourage the 
recruitment of hard assets. We say we understand that. We're 
not challenging what the intention was, but the effect has been 
to discourage it.
    Mr. Shays. David asked the question, that's on the record, 
but important that you tell us your concern as well. Gentlemen, 
very,
very interesting. I appreciate your participation as I did the 
panel before yours. Thank you very much, and at this point this 
hearing is adjourned.
    Thank you for your help as well, Recorder.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]


</pre></body></html>
